*s»

IN THE SUPREME COURT OF THE UNITED STATES OF AMERICA.
HENRY FREDERICK RAMEY, CSC No. S2687121
COA No. 4th Civ. E076944
JR.,
SBSC No. CIVSB 2101966'
SBSC No. LLTVA 2000547)
Petitioner,
v.
APPELLATE DIVISION OF
SUPERIOR COURT OF THE
STATE OF CALIFORNIA, IN
AND FOR THE COUNTY OF
SAN BERNARDINO, HECTOR
PENA GOMEZ,

ftv
*

FILED
MAY 2 V 2021

Respondents.

OFFICE OF THE CLERK
SUPREME COURT. U.S.

PETITION FOR WRIT OF CERTIORARI.
ON PETITION FOR WRIT OF CERTIORARI TO THE CALIFORNIA
COURT OF APPEAL, FOURTH APPELLATE DISTRICT, DIVISION TWO.
HENRY FREDERICK RAMEY, JR.
24784 5th St.
San Bernardino, CA., 92410
TEL.: (909) 678-9348
hanksanberdoo@aol.com
Petitioner in Pro Se.

i

Petition for Writ of Certiorari-Ramey v.
Appellate Division of Superior Court-1

QUESTION PRSENTED FOR REVIEW.
Did the California Court of Appeal, Fourth Appellate District, Division Two,
err in an of issue of nationwide importance, and refused to grant a Writ of
Mandamus, despite the fact that the Trial Court was proceeding to Trial in an
Unlawful Detainer Case despite an Eviction Moratorium issued by the Centers of
Disease Control?

Petition for Writ of Certiorari-Ramey v.
Appellate Division of Superior Court-2

CORPORATE DISCLOSURE STATEMENT.
None of the Parties is a corporate entity.

Petition for Writ of Certiorari-Ramey v.
Appellate Division of Superior Court-3

STATEMENT OF RELATED CASES.
In order to determine any further issue of recusal, this case is involved with
the following cases:
Hector Pena Gomez v. Henry Frederick Ramey, Jr., San Bernardino
Superior Court Case No. LLTVA 2000547. Petitioner is the Defendant in that case.
Henry Frederick Ramey, Jr., v. Superior Court of California (Hector Pena
Gomez), San Bernardino Superior Court Case No. CIVSB 2101966. Petitioner is
the Petitioner in that case.
Henry Frederick Ramey, Jr., v. Appellate Division of the Superior Court of
California (Hector Pena Gomez), Court of Appeal Case No. 4th Civ. E076944.
Petitioner is the Petitioner in that case.
Henry Frederick Ramey, Jr., v. Appellate Division of the Superior Court of
California (Hector Pena Gomez), California Supreme Court Case No. S268712.
Petitioner is the Petitioner in that case.
Henry Frederick Ramey, Jr., v. Hector Pena Gomez, Irina Hernandez aka
Irina Aviles, Tyrone Woodman, Jeffery Bucowice, M. C. Earle, Fast Eviction
Service, Moises A. Aviles, and DOES 1-10, inclusive, San Bernardino Superior
Court Case No. CIVSB 2027004. Petitioner is Plaintiff in this Related Case.

Petition for Writ of Certiorari-Ramey v.
Appellate Division of Superior Court-4

CITATIONS.
The Judgment was granted against Petitioner in the case of Ramey v. Appellate
Division (Pena Gomez), California Court of Appeal No. 4th Civ. E076944 (202q), May
11, 2021, and is unreported.
STATEMENT OF JURISDICTION.
None of the California Courts had jurisdiction. This Court has jurisdiction
pursuant to 28 U. S. C., §1257. Petitioner is seeking to review the Judgment, entered on
May 4, 2021 (Apx. la-2a).
STATUTORY PROVISIONS.
United States Constitution, Article VI, Clause 2, 42 U.S.C. 264, 42 CFR 70.2.
https ://www.federalregister. gov/documents/2020/09/04/2020-19654/temporary-halt-inresidential-evictions-to-prevent-the-further-spread-of-covid-19#footnote-5-p55293 (Apx.
21a-22a).
STATEMENT OF THE CASE.
On October 19, 2020, despite the CDC Eviction Moratorium, Respondent Pena
Gomez filed his Unlawful Detainer Complaint (Unlawful Detainer Complaint).
On December 28, 2020, Petitioner filed his Demurrer alleging that the Unlawful
Detainer Complaint was barred by the CDC Eviction Moratorium (Demurrer; Apx. 6a).
On January 11, 2021, Petitioner stated in his Declaration in Opposition to Advance
the Hearing on Demurrer that the Unlawful Detainer Complaint was still barred by the
CDC Eviction Moratorium (Declaration of Henry Frederick Ramey, Jr.; Apx. 7a-8a).
On January 12, 2021, the Trial Court overruled the Demurrer (Petitioner has
problems accessing this Order online).
On January 29, 2021, Petitioner filed his Answer stating that he served his CDC
Declaration (Answer; Apx. 9a, Paragraph 3(m)(6)(a)). His CDC Declaration is attached
to the Answer (Answer; Apx. 19a-20a).

ill
Petition for Writ of Certiorari-Ramey v.
Appellate Division of Superior Court-5

On February 11, 2021, Petitioner filed his Petition for Writ of Mandamus against
the Trial Court alleging that the Trial Court lacked jurisdiction to hear the Unlawful
Detainer Complaint that was barred by the CDC Eviction Moratorium (First Mandamus
Petition; Apx. 10a-12a).
On February 18, 2021, the Appellate Division denied the Petition for Writ of
Mandamus (Apx. 3a-4a).
On April 22. 2021, Petitioner filed his Petition for Writ of Mandamus against the
Appellate Division alleging that the Trial Court lacked jurisdiction to hear the Unlawful
Detainer Complaint that was barred by the CDC Eviction Moratorium (Second
Mandamus Petition; Apx. 13a-16a).
On May 4, 2021, the California Court of Appeal denied the Petition for Writ of
Mandamus (Apx. la-2a).
On May 10, 2021, Petitioner filed his Petition for Review with the California
Supreme Court alleging that the Trial Court lacked jurisdiction to hear the Unlawful
Detainer Complaint that was barred by the CDC Eviction Moratorium (Petition for
Review; Apx. 17a).
On May 11, 2021, the California Supreme Court denied the Petition for Review
(Apx. 5a).
ARGUMENT.
I.

THE CALIFORNIA COURT OF APPEAL LACKS JURISDICTION IN A

CASE INVOLVING NATIONAL IMPORTANCE IN THAT THE UNLAWFUL
DETAONER COMPLAINT IS BARRED BY THE SERVICE OF THE CDC
DECLRATION TEMPORARILY BARRING EVICTIONS.
Petitioner Henry Frederick Ramey, Jr., served his CDC Declaration on Real Party
in Interest on October 9 and 12, and November 24, 2020. The purpose of the CDC
Declaration is to bar Unlawful Detainer Actions until, now, June 30, 2021. No Unlawful
Detainer Action should have been commenced after the Declaration after it was served on
Real Party in Interest. Accordingly, NOBODY IN THE CALIFORNIA COURTS WAS
Petition for Writ of Certiorari-Ramey v.
Appellate Division of Superior Court-6

LISTENING. Unfortunately, there is no other State Supreme or Circuit Court Opinion
ruling on the constitutionality of the CDC Eviction Moratorium.
Petitioner sought review as to Case No. LLTVA 2000547, Because the Centers for
Disease Control originally issued its Eviction Moratorium on September 4, 2020, which
was set to expire on December 31, 2020. It has been extended three times:
1. It was extended by Congress, signed by President Trump, and set to expire on
January 31, 2021.
2. It was extended by the Hon. Dr. Rochelle P. Walensky, M. D., M. P. H.,
Director, Centers for Disease Control, to March 31,2021.
3. It was again extended by the Hon. Dr. Rochelle P. Walensky, M. D., M. P. H.,
Director, Centers for Disease Control, to June 30, 2021.
Yet, Real Party in Interest continues to prosecute the Unlawful Detainer Action,
which is a misdemeanor under Federal Law on the basis of seeking the February 2020
rent that was paid on March 8, 2021, as part of Petitioner’s then Chapter 13 Bankruptcy
Plan, and which Petitioner already paid the previous owner Irina Hernandez $450 on
April 2, 2020, pursuant to her Three Day Notice to Pay Rent or Quit. Because of the CDC
Eviction Moratorium, the Superior Court lacks all jurisdiction to proceed in Case No.
LLTVA 2000547 on June 7, 2021, or any other date.
Also, the CALIFORNIA COURTS SHOULD HAVE BEEN LISTENING!
HELLO?!!! Their action in refusing to hear Petitioner’s case in those Courts gave the
Superior Court the authority to act in excess of jurisdiction, since they no authority to
evict Petitioner in violation of the CDC Eviction Moratorium.
The Order stated in https://www.federalregister.gov/documents/2020/09/04/202Q19654/temporary-halt-in-residential-evictions-to-prevent-the-further-spread-of-covid19#footnote-5-p55293, states in part that:
“Therefore, under 42 CFR 70.2, subject to the limitations under the
“Applicability” section, a landlord, owner of a residential property, or other
person with a legal right to pursue eviction or possessory action shall not
evict any covered person from any residential property in any State or U.S.
territory in which there are documented cases of COVID-19 that provides a
Petition for Writ of Certiorari-Ramey v.
Appellate Division of Superior Court-7

level of public-health protections below the requirements listed in this
Order”.......................................................................................................
Section 502 of the latest COVID Relief Act states:
“SEC. 502. EXTENSION OF EVICTION MORATORIUM. The
order issued by the Centers for Disease Control and Prevention under
section 361 of the Public Health Service Act (42 U.S.C. 264), entitled
“Temporary Halt in Residential Evictions To Prevent the Further Spread of
COVID-19” (85 Fed. Reg. 55292 (September 4, 2020) is extended through
January 31, 2021, notwithstanding the effective dates specified in such
Order.”
The Moratorium has since been extended to March 31, 2021, and now, June 30,
2021.
Here, this Action is barred.
In addition, none of the Judges complied with the Supremacy Clause. Adherence
to Federal law is important, and these are the same type of Judges that ignore California
law.

See

v.

People

Vivar

(2021)

https://www.courts.ca.gov/opinions/documents/S260270.PDF.
CONCLUSION.
Petitioner hereby requests that this Court reverse the Order Denying the Petition
for Writ of Mandamus filed on April 22, 2021, and thereafter require the Appellate
Division of the Superior Court to in turn issue a Writ of Mandamus instructing the Trial
Court to dismiss Hector Pena Gomez v. Henry Frederick Ramey, Jr., San Bernardino
Superior Court Case No. LLTVA 2000547.
Dated this 24th day of May, 2021

Petitioner in Pro Se.

Petition for Writ of Certiorari-Ramey v.
Appellate Division of Superior Court-8

